No. ______
IN THE

Supreme Court of the United States

___________________________________________________________
JEFFREY GLENN HUTCHINSON,
Petitioner,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.
____________________________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
______________________________________________________________
PETITIONER’S APPENDIX
______________________________________________________________
THIS IS A CAPITAL CASE

SEAN GUNN
Counsel of Record
TERRI BACKHUS
Office of the Federal Public Defender
Northern District of Florida
Capital Habeas Unit
227 North Bronough St., Suite 4200
Tallahassee, Florida 32301
(850) 942-8818
sean_gunn@fd.org

INDEX TO APPENDIX
Order Denying Rehearing (11th Cir. Apr. 29, 2021) .................................................. 1a
Order Denying Certificate of Appealability (11th Cir. Mar. 24, 2021) ...................... 7a
Order Denying Amended Rule 60(b) Motion (N.D. Fla. Jan. 15, 2021)..................... 8a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 1 of 6

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 21-10508-P
________________________
JEFFREY GLENN HUTCHINSON,
Petitioner - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
Before: JORDAN, BRANCH, and LUCK, Circuit Judges.
BY THE COURT:
We DENY Jeffrey Glenn Hutchinson’s motion for reconsideration of the
March 24, 2021 order denying his motion for certificate of appealability and write
briefly to respond to the dissenting opinion. The dissenting opinion would grant a
certificate to appeal the district court’s denial of Hutchison’s rule 60(b)(6) motion
based on McQuiggin v. Perkins, 569 U.S. 383 (2013) (and other circumstances).
But, for two reasons, the district court’s denial of Hutchinson’s McQuiggin-based
rule 60(b)(6) motion is not debatable and does not deserve further encouragement.
1

1a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 2 of 6

First, “the U.S. Supreme Court has already told us that a change in decisional
law is insufficient to create the ‘extraordinary circumstances’ necessary to invoke
[r]ule 60(b)(6).” Arthur v. Thomas, 739 F.3d 611, 631 (11th Cir. 2014) (citing
Gonzalez v. Crosby, 545 U.S. 524, 535–38 (2005)). While, as the dissenting opinion
points out, the Third Circuit disagrees, Satterfield v. Dist. Att’y Phila., 872 F.3d 152,
160–63 (3d Cir. 2017), that disagreement “does not present a debatable question,”
Lambrix v. Sec’y, Fla. Dep’t of Corr., 851 F.3d 1158, 1171 (11th Cir. 2017). “[W]e
are bound by our Circuit precedent, not by Third Circuit precedent. Arthur is
controlling on us and ends any debate among reasonable jurists about the correctness
of the district court’s decision under binding precedent.” Hamilton v. Sec’y, Fla.
Dep’t of Corr., 793 F.3d 1261, 1266 (11th Cir. 2015). “And no COA should issue
where the claim is foreclosed by binding circuit precedent ‘because reasonable
jurists will follow controlling law.’” Id. (quoting Gordon v. Sec’y, Dep’t of Corr.,
479 F.3d 1299, 1300 (11th Cir. 2007)).
Second, even if McQuiggin was sufficient to create the extraordinary
circumstances necessary to invoke rule 60(b)(6), its narrow equitable gateway
through the statute of limitations “open[s] only when a petition presents evidence of
innocence so strong that a court cannot have confidence in the outcome of the trial .
. . .” McQuiggin, 569 U.S. at 401 (quotation omitted). Given the overwhelming

2

2a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 3 of 6

evidence that Hutchinson murdered his girlfriend and her children, the confidence
in the outcome of his trial is solid and not debatable:
Hutchinson was charged and convicted of four counts of first-degree
murder with a firearm for the murders of his live-in girlfriend, Renee
Flaherty, and her three children: four-year-old Logan, seven-year-old
Amanda, and nine-year-old Geoffrey. Hutchinson was sentenced to
death for the murder of each child.
The relevant facts concerning the murders are as follows. On the
evening of the murders, Hutchinson and Renee argued. Hutchinson
packed some of his clothes and guns into his truck, left, and went to a
bar. Renee then called her friend, Francis Pruitt (Pruitt), in Washington
and told her that she thought Hutchinson had left for good. The
bartender testified that Hutchinson arrived around 8 p.m. Hutchinson
told the bartender, “Renee is pissed off at me,” drank one and a half
glasses of beer and then left the bar muttering to himself. Other
witnesses testified that Hutchinson drove recklessly after he left the bar.
Approximately forty minutes after Hutchinson left the bar, there
was a 911 call from Hutchinson’s home. The caller stated, “I just shot
my family.” Two of Hutchinson’s close friends identified the caller’s
voice as Hutchinson’s. Hutchinson said to the 911 operator, “There
were some guys here.” He told the operator that he did not know how
many people were there, how many had been hurt, or how they had
been injured. Deputies arrived at Hutchinson’s home within ten minutes
of the 911 call and found Hutchinson on the ground in the garage with
the cordless phone nearby. The phone call was still connected to the
911 operator. Deputies found Renee’s body on the bed in the master
bedroom, Amanda’s body on the floor near the bed in the master
bedroom, and Logan’s body at the foot of the bed in the master
bedroom. Each had been shot once in the head with a shotgun. Deputies
found Geoffrey’s body on the floor in the living room between the
couch and the coffee table. He had been shot once in the chest and once
in the head. The murder weapon, a Mossberg 12-gauge pistol-grip
shotgun that belonged to Hutchinson, was found on the kitchen counter.
Hutchinson had gunshot residue on his hands. He also had Geoffrey’s
body tissue on his leg.
3

3a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 4 of 6

Hutchinson’s defense at trial was that two men came into the
house, he struggled with them, and they shot Renee and the children
and fled. Hutchinson was examined by an EMT at the scene and a jail
nurse. He had no injuries. Hutchinson also presented the defense of
intoxication, and he argued that this was a crime of passion, not firstdegree murder. The jury found Hutchinson guilty of four counts of firstdegree murder.
Hutchinson v. State, 17 So. 3d 696, 698 (Fla. 2009).
Hutchison’s rule 60(b)(6) motion offered (allegedly) new evidence that his
two friends robbed a bank with masks and a shotgun. But evidence that his friends
robbed a bank with masks and a shotgun is not strong evidence that Hutchinson is
innocent. As Chief Judge Mark Walker explained in his order denying Hutchinson’s
rule 60(b)(6) motion and a certificate of appealability, “[e]ven if [the friends] had
not identified Mr. Hutchinson’s voice on the 911 call, and even if the two men
robbed a bank wearing masks and carrying shotguns, the jury had sufficient evidence
before it to conclude that [Hutchinson] made the call and that he shot his girlfriend
and her children with his own shotgun.” (DE 82 at 18); see also Hutchinson, 17 So.
3d at 703 (“We find that this actual innocence claim is without merit.”).
Hutchinson’s shotgun was the murder weapon. He had gunshot residue on his hands.
He had the remains of little Geoffrey on his leg. His story that he struggled with the
real shooter was contradicted by the physical evidence. He was still connected to
the 911 call minutes after confessing that he murdered his family. And he argued
with his girlfriend the day he murdered her and her kids. Because Hutchinson has
4

4a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 5 of 6

not made a debatable showing of actual innocence under McQuiggin, he is not
entitled to a certificate of appealability.

5

5a

USCA11 Case: 21-10508

Date Filed: 04/29/2021

Page: 6 of 6

JORDAN, Circuit Judge, dissenting.
The COA standard, see 28 U.S.C. § 2253(c)(2), requires us to decide only
whether the district court’s ruling on a given claim is debatable. We cannot base our
COA decision on a full determination of the merits, and the fact “that a prisoner has
failed to make the ultimate showing that his claim is meritorious does not logically
mean that he failed to make a preliminary showing that his claim [is] debatable.”
Buck v. Davis, 137 S.Ct. 759, 774 (2017).
Applying that standard, I would grant Mr. Hutchinson a COA to appeal the
district court’s denial of his Rule 60(b) motion based on McQuiggin v. Perkins, 569
U.S. 383 (2013), and other asserted circumstances. Given the Third Circuit’s Rule
60(b) decision in Satterfield v. District Atty. of Philadelphia, 872 F.3d 152, 160-64
(3d Cir. 2017), the district court’s ruling is debatable.

Alternatively, Mr.

Hutchinson’s Rule 60(b) claim “deserve[s] encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).

6

6a

USCA11 Case: 21-10508

Date Filed: 03/24/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 21-10508-P
________________________
JEFFREY GLENN HUTCHINSON,
Petitioner - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
ORDER:
Appellant’s motion for a certificate of appealability is DENIED for the same
reasons the district court denied his amended Rule 60(b) motion and motion for a
COA in its thorough and detailed twenty-six page order.

/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

7a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 1 of 26

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
JEFFREY GLENN HUTCHINSON,
Petitioner,
Case No. 3:13cv128-MW
CAPITAL CASE

v.
MARK S. INCH, Secretary,
Florida Department of Corrections,
et al.,
Respondent.
_________________________________/

ORDER DENYING AMENDED RULE 60(b) MOTION
Before this Court is Petitioner Jeffrey Hutchinson’s counseled supplement to
his pro se motion for relief from judgment pursuant to Federal Rule of Civil
Procedure 60(b). ECF No. 78. In Mr. Hutchinson’s pro se motion, ECF No. 17, he
alleged fraud on the court, actual innocence, and claims of ineffective assistance of
counsel under Martinez v. Ryan, 566 U.S. 1 (2012). This counseled supplement to
that motion is treated as an amended Rule 60(b) motion. 1

1

Respondent disputes that the motion is a supplement to Mr. Hutchinson’s pro se motion and
contends it is an amended motion. ECF No. 79 at 4 n.2. Mr. Hutchinson’s counsel replies that it
makes little practical difference whether the Court treats the counseled supplemental motion as
supplemental to the pro se Rule 60(b) motion filed by Mr. Hutchinson or as an amended motion
because this counseled filing is based on and incorporates by reference the substance of Mr.
Hutchinson’s pro se motion and “makes the strongest arguments in support of granting relief.”
ECF No. 81 at 2.

8a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 2 of 26
Page 2 of 26

In the amended motion, Mr. Hutchinson alleges that relief is available under
Rule 60(b)(6) to reopen his 2009 petition for writ of habeas corpus filed under 28
U.S.C. § 2254, which was dismissed as untimely. He contends extraordinary
circumstances exist, alleging risk of injustice to the parties and unfairness in the
prior § 2254 proceedings. He also cites major changes in decisional law—possible
relief under Martinez, possible invalidation of his death sentence under Hurst v.
Florida, 577 U.S. 92 (2016), and actual innocence providing a gateway to review
under McQuiggin v. Perkins, 569 U.S. 383 (2013). ECF No. 78 at 4-5. The motion
further contends that the timing of the Rule 60(b) motion was reasonable and, at a
minimum, a certificate of appealability should be granted. Id. at 65-67.
Based on these asserted grounds, he contends that his first § 2254 petition
filed in 2009, which this Court previously dismissed as untimely, should be
reopened.2 For the reasons that follow, Mr. Hutchinson’s amended Rule 60(b)
motion is denied.
Background
Mr. Hutchinson was convicted after jury trial in 2001 of murdering his
girlfriend, Renee Flaherty, and her three children, Geoffrey, Amanda, and Logan.
He was sentenced to life in prison for the murder of Renee and to death for each of
the murders of the children. The Florida Supreme Court affirmed his convictions

2

See Hutchinson v. Florida, No. 5:09cv261/RS, ECF No. 39 (Sept. 28, 2010).

Case No. 3:13cv128-MW

9a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 3 of 26
Page 3 of 26

and sentences in Hutchinson v. State, 882 So. 2d 943 (Fla. 2004). He filed a
motion for postconviction relief, which was denied, and he appealed, alleging
(1) ineffective assistance of trial counsel in the guilt phase for failure to present
evidence that the voice on a 911 call stating that the caller “just shot my family”
was not Hutchinson’s; (2) ineffective assistance of counsel for failure to introduce
evidence of a nylon stocking found in the yard of the crime scene when his theory
of defense was that two masked men actually shot and killed the family; and (3)
postconviction court error in denying his actual innocence and conflict of interest
claims. The Florida Supreme Court affirmed denial of these claims. Hutchinson v.
State, 17 So. 3d 696 (Fla. 2009). The postconviction motion was filed in 2005 after
the one-year limitations period for filing a § 2254 petition for writ of habeas
corpus expired and therefore did not toll the running of the limitations period.
Almost four years later, in 2009, Mr. Hutchinson filed his first federal
habeas petition, pro se, in Hutchinson v. State of Florida, No. 5:09cv261-RS.
Counsel was appointed and filed an amended § 2254 petition, which was dismissed
as time barred.3 The one-year statute of limitations set forth in the Antiterrorism
and Effective Death Penalty Act (AEDPA) expired in 2005 before Mr. Hutchinson
3

The claims raised in case number 5:09cv261-RS alleged: (1) ineffective assistance of trial
counsel regarding the 911 tape and the nylon stocking; (2) prosecutor’s comments in closing
argument; (3) testimony of law enforcement about speaking to the Defendant during the portion
of the interview that had been suppressed; (4) inappropriate extrajudicial comments to three
jurors during a lunch break; and (5) that the aggravating circumstance of age of the child victims
did not narrow the class of murders. ECF No. 19.
Case No. 3:13cv128-MW

10a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 4 of 26
Page 4 of 26

filed his pro se postconviction motion in State court, and this Court found no basis
to apply equitable tolling. ECF No. 39. The Eleventh Circuit Court of Appeals
affirmed, concluding that the limitations period was not equitably tolled by
counsel’s miscalculation in the timing of filing the state postconviction motion.
Hutchinson v. Florida, 677 F.3d 1097 (11th Cir. 2012). The Eleventh Circuit also
found that Mr. Hutchinson had not acted with due diligence in filing his § 2254
petition even though he knew shortly after his postconviction motion was filed in
2005 that the motion would not toll the running of the federal limitations period.
Id. at 1102.
On March 21, 2013, Mr. Hutchinson, pro se, filed another § 2254 petition
for writ of habeas corpus in this Court challenging the legality of the same state
court judgment that was the subject of the first § 2254 petition he filed in 2009. See
3:13cv128-MW, ECF No. 1. On April 24, 2013, this Court granted Respondent’s
motion to dismiss the petition as a successive petition not authorized by the
Eleventh Circuit Court of Appeals, as required by 28 U.S.C. § 2244(b)(3)(A). ECF
No. 7. Mr. Hutchinson’s pro se motion to reconsider and to appoint counsel filed
on May 10, 2013, ECF No. 8, construed as a motion to alter or amend under Rule
59(e), was denied without prejudice. ECF No. 13.
Mr. Hutchinson then filed a pro se motion for relief from judgment pursuant
to Rule 60(b) seeking to reopen the first habeas petition and requested appointment

Case No. 3:13cv128-MW

11a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 5 of 26
Page 5 of 26

of counsel. ECF No. 17. Respondent agreed that counsel should be appointed and,
on December 11, 2014, the Court appointed the Capital Habeas Unit of the Federal
Public Defender to investigate and determine if any legally sufficient grounds
could be presented to require the first habeas petition to be reopened under Rule
60(b). ECF Nos. 18, 23. Although the pro se motion for relief under Rule 60(b)
was denied by order on December 18, 2014, the denial was without prejudice to
appointed counsel filing another Rule 60(b) motion or other pleading alleging any
legal bases for relief. ECF No. 24.
On motion of appointed counsel, ECF No. 25, the order denying the Rule
60(b) motion was vacated on January 14, 2015, and Mr. Hutchinson’s Rule 60(b)
motion was reinstated and held in abeyance pending evaluation by counsel. ECF
No. 26. In that order, the case was stayed and Mr. Hutchinson’s counsel was
directed to file status reports setting forth the status of the evaluation and the intent
to amend, supplement, or withdraw the pending Rule 60(b) motion. Mr.
Hutchinson’s Capital Habeas Unit counsel was also granted leave to exhaust a
claim for state court relief under Hurst v. Florida. ECF No. 69. Hurst relief was
denied in state court on March 15, 2018. Hutchinson v. State, 243 So. 3d 880
(Fla.), cert. denied, Hutchinson v. Florida, 139 S. Ct. 261 (2018). After conclusion
of discovery for purposes of evaluation and amendment of the Rule 60(b) motion,
the stay was lifted on February 25, 2020. ECF No. 77.

Case No. 3:13cv128-MW

12a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 6 of 26
Page 6 of 26

On May 26, 2020, Mr. Hutchinson’s appointed counsel filed the amended
Rule 60(b) motion. ECF No. 78. The motion seeks relief from the dismissal of his
2009 petition for writ of habeas corpus. Respondent filed a response in opposition,
ECF No. 79, and Mr. Hutchinson filed a reply with leave of court. ECF Nos. 80,
81.
Rule 60(b)
Federal Rule of Civil Procedure 60(b) allows a party to seek relief or reopen
his civil case under these circumstances: (1) mistake, inadvertence, surprise, or
excusable neglect; (2) newly discovered evidence that with due diligence could not
have been discovered in time for a new trial; (3) fraud, misrepresentation, or
misconduct by an opposing party; (4) the judgment is void; (5) the judgment has
been satisfied, released, or discharged; and (6) “any other reason that justifies
relief.” Fed. R. Civ. P. 60(b). “A motion under Rule 60(b) must be made within a
reasonable time—and for reasons (1), (2), and (3) no more than a year after the
entry of the judgment.” Fed. R. Civ. P. 60(c)(1). Thus, a motion filed under the
catchall provision of Rule 60(b)(6) must be filed within a “reasonable time . . .
after the entry of the judgment or order or the date of the proceeding.” Fed. R. Civ.
P. 60(c)(1).
Rule 60(b)(6) requires the movant to “show ‘extraordinary circumstances’
justifying the reopening of a final judgment.” Gonzalez v. Crosby, 545 U.S. 524,

Case No. 3:13cv128-MW

13a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 7 of 26
Page 7 of 26

535 (2005) (quoting Ackermann v. United States, 340 U.S. 193, 199 (1950)).
Extraordinary circumstances that warrant the reopening of a judgment “will rarely
occur in the habeas context.” Id. Even then, whether to grant the requested relief
“is a matter for the district court’s sound discretion.” Lugo v. Sec’y, Fla. Dep’t of
Corr., 750 F.3d 1198, 1210 (11th Cir. 2014).
The Supreme Court has observed that “not every interpretation of the federal
statutes setting forth the requirements for habeas provides cause for reopening
cases long since final,” but “[a] change in the interpretation of a substantive statute
may have consequences for cases that have already reached final judgment,
particularly in the criminal context.” Gonzalez, 545 U.S. at 536, and n.9 (emphasis
in original). However, the Supreme Court held in Gonzalez that the change in the
interpretation of the AEDPA statute of limitations announced in Artuz v. Bennett,
531 U.S. 4 (2000), as to the meaning of when a state application for postconviction
relief is “properly filed,” did not constitute “extraordinary circumstances” as
required in a motion to vacate. Gonzalez, 545 U.S. at 536.
The Eleventh Circuit also held that the change in decisional law brought
about by the rule in Martinez v. Ryan is not an “extraordinary circumstance”
sufficient to invoke Rule 60(b)(6). Zack v. Sec’y, Fla. Dep’t of Corr., 721 F. App’x
918, 924 (11th Cir.) (unpublished) (citing Arthur v. Thomas, 739 F.3d 611, 631
(11th Cir. 2014), cert. denied sub nom. Zack v. Jones, 139 S. Ct. 322 (2018)). And,

Case No. 3:13cv128-MW

14a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 8 of 26
Page 8 of 26

the Eleventh Circuit held in Howell v. Sec’y, Fla. Dep’t of Corr., 730 F.3d 1257,
1261 (11th Cir. 2013), that the change in law resulting from Holland v. Florida,
560 U.S. 631 (2010), is not an extraordinary circumstance justifying reopening a
habeas case that was dismissed for untimely filing. See Holland, 560 U.S. at 649,
651 (describing as “too rigid” a per se rule that “even attorney conduct that is
‘grossly negligent’ can never warrant tolling absent ‘bad faith, dishonesty, divided
loyalty, mental impairment or so forth on the lawyer’s part’ ”).
A Rule 60(b) motion cannot be used to circumvent the prohibition on filing
unauthorized successive post-conviction challenges. See Gonzalez, 545 U.S. at
530-32 (addressing a 28 U.S.C. § 2254 petition). The Supreme Court has held that
Rule 60(b) motions are to be considered impermissible successive habeas petitions
if the prisoner either (1) raises a new ground for substantive relief or (2) attacks the
habeas court’s previous resolution of a claim on the merits. Gonzalez, 545 U.S. at
531-32. A Rule 60(b) motion is appropriate in a habeas proceeding only when the
petitioner does not assert, or reassert, claims of error in the state-court conviction.
Franqui v. Florida, 638 F.3d 1368, 1371-72 (11th Cir. 2011). Rule 60(b) motions,
however, may properly be used to allege “defect[s] in the integrity of the federal
habeas proceedings.” Gonzalez, 545 U.S. at 532. A Rule 60(b) motion is not
successive when a movant “asserts that a previous ruling which precluded a merits

Case No. 3:13cv128-MW

15a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 9 of 26
Page 9 of 26

determination was in error—for example, a denial for such reasons as failure to
exhaust, procedural default, or statute-of-limitations bar.” Id. at 532 n.4.
Mr. Hutchinson contends that his Rule 60(b) motion is not a successive
§ 2254 petition because it does not raise a claim for constitutional relief, but
instead alleges an accumulation of factors that have created a defect in the integrity
of the federal habeas proceedings and have established extraordinary
circumstances under Rule 60(b)(6). He argues that reopening the 2009 petition will
provide an initial merits review, not a successive one, of his claims. ECF No. 78 at
64-65.
Grounds Presented for Relief
Mr. Hutchinson requests the Court to conduct a “holistic and cumulative
review” in its Rule 60(b)(6) analysis, taking into consideration a “wide range of
factors” and exercise its broad discretion to allow merits review of his
constitutional claims for the first time.
A. Attorneys’ Conduct
Mr. Hutchinson first contends that extraordinary circumstances exist under
Rule 60(b)(6) to warrant reopening the 2009 § 2254 petition because of ineffective
assistance of his prior federal counsel, Mr. Doss, during the first federal
proceeding. Although Mr. Hutchinson’s amended motion concedes there is no
recognized right to effective assistance of federal habeas counsel, he urges

Case No. 3:13cv128-MW

16a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 10 of 26
Page 10 of 26

consideration of that conduct as part of a “totality of the circumstances” analysis to
determine if equitable relief should be granted.4
The amended motion argues that Mr. Doss’s failings are also intertwined
with reasons for the missed AEDPA deadline for his initial § 2254 petition. While
agreeing that the ruling of the Eleventh Circuit that Mr. Hutchinson was not
entitled to equitable tolling of the deadline cannot be revisited, Mr. Hutchinson
contends that state postconviction counsel’s miscalculation of the deadline for
filing the state postconviction motion necessary to toll the running of the AEDPA
statute of limitations should also be considered in the totality-of-the-circumstances
analysis. ECF No. 78 at 7-8. The amended motion recognizes that soon after the
deadline passed, Mr. Hutchinson discovered that his attorneys had filed his state
postconviction motion too late to toll the AEDPA statute of limitations, but Mr.
Hutchinson waited almost four years, until the state litigation was over, before
filing a pro se federal § 2254 petition. Id. at 8. It was upon this set of facts that the
Eleventh Circuit found Mr. Hutchinson had not been diligent in pursuing his rights
to warrant equitable tolling. Hutchinson, 677 F. 3d at 1102-03.

4

The amended motion notes that Mr. Hutchinson’s pro se Rule 60(b) motion alleged that his
federal counsel committed fraud on the court under Rule 60(b)(3). The motion cited counsel’s
failure to include an actual innocence claim in his petition, a request to the Court for a stay and
authorization to exhaust innocence issues in state court but never undertaking any state litigation,
and failure to provide this Court and the Eleventh Circuit with critical records in support of
equitable tolling arguments. ECF No. 78 at 6. His current amended motion recognizes, however,
that the Rule 60(b)(3) fraud on the court ground requires fraud by an “opposing party” not
counsel. ECF No. 78 at 7 n.1.
Case No. 3:13cv128-MW

17a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 11 of 26
Page 11 of 26

The amended Rule 60(b)(6) motion notes that Mr. Hutchinson argued in his
pro se motion that his federal counsel failed to obtain the entire state
postconviction record prior to amending his 2009 habeas petition and failed to
include in it an actual innocence claim. Federal counsel sought a stay of
proceedings with the stated intention to return to state court to pursue a claim of
actual innocence. See Case No. 5:09cv261/RS, ECF Nos. 20, 24. Five months later
the Court issued an order to show cause why the stay was still necessary. In
response, Mr. Doss responded that he had not yet been able to pursue state court
remedies because he did not represent Mr. Hutchinson in state court and had been
unable to obtain funding for Mr. Hutchinson to pursue the state claims. See id. ECF
No. 37. Mr. Doss also asked to be appointed to represent Mr. Hutchinson in state
court, but that request was denied. See id. ECF No. 39 at 4.
Although noting that there is no recognized right to effective assistance of
federal habeas counsel, the amended Rule 60(b)(6) motion contends that this
conduct by federal appointed counsel should be considered as part of the
extraordinary circumstances analysis because, in addition to Mr. Doss’s fault in
failing to present a complete actual innocence claim, “the Court’s own rulings
contributed unfairness to the process as well.” Case No. 3:13cv128-MW, ECF No.
78 at 12-13.

Case No. 3:13cv128-MW

18a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 12 of 26
Page 12 of 26

Whether the first § 2254 petition was filed without a complete record or was
incomplete without an actual innocence claim misses the mark—that deficiency
did not contribute to the late filing of the petition and does not provide
extraordinary circumstances to require reopening it. Neither did this Court’s
rulings contribute to the late filing of the petition in 2009. Nothing appointed
counsel did after Mr. Hutchinson’s first, pro se, petition was filed almost four years
late on July 24, 2009, caused the late filing or provides extraordinary
circumstances for reopening that petition.
Mr. Hutchinson also argues that his state postconviction counsel’s filing of
his state postconviction motion after the running of federal habeas limitations
period should also be considered as part of the holistic review of alleged
extraordinary circumstances. As he recognizes in his motion, this Court cannot
revisit the Eleventh Circuit’s holding that he was not entitled to equitable tolling
for that reason. Nothing can be gained by repeating all the facts surrounding
conduct of the state postconviction counsel and Mr. Hutchinson’s own failure of
diligence in pursuing his federal rights for nearly four years after learning that his
state postconviction proceeding had been filed too late to toll the running of his
federal limitations period. See Hutchinson, 677 F.3d at 1099-1100. Even when
those circumstances are revisited in a review of all possible factors supporting a
claim of extraordinary circumstances, no extraordinary circumstance is shown.

Case No. 3:13cv128-MW

19a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 13 of 26
Page 13 of 26

“Although the distinct categories of extraordinary circumstances that support
reopening of a final judgment under Rule 60(b)(6) and those that support equitable
tolling may overlap, an extraordinary circumstance must independently warrant
each particular relief sought.” Zack, 721 F. App’x at 923 (unpublished). In Zack,
the Eleventh Circuit found that “system failures” in the state proceedings—the
State’s delay in appointing him counsel in sufficient time for him to meet his
federal habeas deadlines—does not constitute a defect in the integrity of the federal
habeas proceeding for purposes of Rule 60(b)(6) and cannot constitute
extraordinary circumstances under the rule. Id. at 925. Similarly, state counsel’s
miscalculation of the filing date of Mr. Hutchinson’s state postconviction motion
was not an extraordinary circumstance warranting equitable tolling and it is not an
extraordinary circumstance warranting relief under Rule 60(b) when considered
independently or when considered cumulatively with the other facts cited by Mr.
Hutchinson.
Mr. Hutchinson also argues that the facts establishing extraordinary
circumstances include this Court’s “unfairness” in its “failure to rule on Mr. Doss’s
motion for authorization to appear in state court to pursue Mr. Hutchinson’s
innocence remedies.” However, neither Mr. Doss’s failure to include an actual
innocence claim in the amended petition he filed in 2009, nor his inability to return
to State court to pursue innocence remedies, constituted a defect in the integrity of

Case No. 3:13cv128-MW

20a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 14 of 26
Page 14 of 26

the proceeding rising to the level of extraordinary circumstances necessary for
reopening the 2009 petition under Rule 60(b)(6).
B. Changes in the Law
1. McQuiggin and the Actual Innocence Gateway
The amended motion also relies on the decision in McQuiggin v. Perkins,
569 U.S. 383 (2013), first, as one of the rare changes in decisional law that should
serve as an extraordinary circumstance sufficient to reopen his first federal habeas
petition. Second, he contends that the decision is a gateway to allow merits review
of the first petition based on his actual innocence. ECF No. 78 at 22, 25.
McQuiggin was decided several years after Mr. Hutchinson’s first federal habeas
petition was dismissed. The United States Supreme Court held in McQuiggin that a
prisoner filing a first federal habeas petition could overcome the one-year statute of
limitations set forth in 28 U.S.C. § 2244(d)(1) upon a showing of “actual
innocence.” Id. at 386. However, “a petitioner does not meet the threshold
requirement unless he persuades the district court that, in light of the new evidence,
no juror, acting reasonably, would have voted to find him guilty beyond a
reasonable doubt.” Id. (2013) (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).
A habeas petitioner asserting a claim of actual innocence need not prove
diligence to overcome a procedural bar, but timing is a relevant factor in evaluating
the reliability of proof of innocence. Unexplained delay in presenting new

Case No. 3:13cv128-MW

21a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 15 of 26
Page 15 of 26

evidence to support a claim of actual innocence bears on the determination of
whether the petitioner has made a sufficient showing. McQuiggin, 569 U.S. at 399.
See also House v. Bell, 547 U.S. 518, 537 (2006).
In this case, Mr. Hutchinson is not raising McQuiggin at the time of filing a
first untimely petition, but in the context of a motion to reopen a years-old
dismissed petition. Nothing in McQuiggin indicates that it should be applied
retroactively to habeas cases already dismissed as untimely or otherwise on
collateral review. The Third Circuit, however, has held that McQuiggin’s change in
law may constitute an exceptional circumstance under Rule 60(b)(6) for reopening
a prior untimely petition if the petitioner can make a showing of actual innocence.
Satterfield v. District Attorney Philadelphia, 872 F.3d 152, 163 (3d Cir. 2017).
Assuming without deciding that Mr. Hutchinson may seek to reopen his untimely
initial federal habeas petition in a Rule 60(b)(6) motion filed almost four years
later based on the “actual innocence” gateway of McQuiggin, the allegations
provided in Mr. Hutchinson’s Rule 60(b)(6) do not identify any new, reliable
evidence establishing his actual, factual innocence.
A claim of actual innocence requires a petitioner to “support his allegations
of constitutional error with new reliable evidence—whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.” Schlup, 513 U.S. at 324. Mr.

Case No. 3:13cv128-MW

22a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 16 of 26
Page 16 of 26

Hutchinson has provided no evidence at all that shows “it is more likely than not
that no reasonable juror would have convicted” him. McQuiggin, 569 U.S. at 395
(quoting Schlup, 513 U.S. at 329). Thus, the decision in McQuiggin and Mr.
Hutchinson’s claims of actual innocence provide no basis for reopening the
untimely 2009 petition.
Mr. Hutchinson’s counseled Rule 60(b)(6) motion mentions without
discussion allegations he made in his earlier pro se motion concerning evidence he
contended should be considered in determining if the 2009 petition should be
reopened.5 The counseled motion further alleges in more detail the existence of
new evidence—FBI records obtained through the Freedom of Information Act that
discussed investigation of Mr. Hutchinson’s former friends Billy Lee Taylor, Joel
Adams, and Deanna Adams for a bank robbery. The Adams, then husband and
wife, were friends and supportive of Mr. Hutchinson after his arrest, but ultimately
testified at trial that the voice on the 911 call stating the caller just shot his family
was Mr. Hutchinson’s. See Hutchinson v. State, 882 So. 2d 943, 948 (Fla. 2004).

5

The pro se motion alleged inter alia that the father of the murdered children had a motive to kill
them and their mother; that the murder weapon did not have blood, fingerprints, or DNA on it;
that a witness could have testified that a man wearing a hat or mask was seen driving Mr.
Hutchinson’s truck; that the medical examiner had a history of falsifying autopsy findings; and
that a lady’s tan nylon stocking that could have been used as a mask was found in the backyard
of the home but not tested. Case No. 3:13cv128-MW, ECF No. 17 at 13-20. It should be noted
that Mr. Hutchinson told officers that two men entered the home wearing black ski masks, not
masks made of a lady’s nylon stocking. Hutchinson, v. State, 17 So. 3d 696, 792 (Fla. 2013).
The counseled amended motion states that the murder weapon was not tested for DNA. ECF No.
78 at 35.
Case No. 3:13cv128-MW

23a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 17 of 26
Page 17 of 26

Mr. Hutchinson argues now that the FBI files support the defense theory that the
Adams “flipped to support the prosecution” because of pressure from law
enforcement investigating their role in a bank robbery. ECF No. 78 at 28-29.
The amended motion states that at the time of trial, defense counsel knew of
Mr. Taylor’s arrest for bank robbery and knew of the grand jury testimony of Mr.
and Mrs. Adams and tried to cross examine them about it but were precluded by
the trial court. The amended motion states that no investigative FBI files were
disclosed to the defense at that time giving details of the investigation or
explaining why the Adams were not tried for the crime. He asserts this FBI report
contains new exculpatory and impeaching evidence not previously provided and
proves his innocence because the information about two men who perpetrated the
bank robbery wearing masks and carrying shotguns is consistent with his
innocence theory and because it shows the Adams had a motive to lie at his trial.
ECF No. 78 at 30-31.
However, evidence that may be consistent with an innocence theory is not
necessarily evidence of actual innocence. The evidence presented at trial showed
that Mr. Hutchinson argued with Renee, packed some belongings and his guns, and
went to a bar where he drank and complained about the argument. See Hutchinson
v. State, 17 So. 3d 696, 698 (Fla. 2013). Forty minutes later, a 911 call was
received from Renee’s residence in which the caller stated he just shot his family.

Case No. 3:13cv128-MW

24a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 18 of 26
Page 18 of 26

Id. When officers arrived, Mr. Hutchinson was on the floor of the garage with the
cordless phone nearby still connected to the 911 operator. Id. The murder weapon,
a shotgun that belonged to Mr. Hutchinson, was found on the kitchen counter and
he had gunshot residue on his hands. Body tissue from one of the child victims was
on Mr. Hutchinson’s leg. Id. Mr. Hutchinson’s defense at trial was that two men
wearing masks and carrying shotguns entered the home, struggled with him, shot
the family, albeit with Mr. Hutchinson’s shotgun, and left. Id. He also told the
officers that he struggled with the men, but the evidence showed he had no wounds
or evidence of a struggle on his body. See Hutchinson, 882 So. 2d at 948-49.
The FBI files that he contends show the Adams had a motive to lie and that
two men robbed a bank wearing ski masks and carrying shotguns may be new
evidence as he contends, but that evidence does not meet the requirement of
reliable evidence of his actual, factual innocence. See, e.g., Rozzelle v. Sec’y, Fla.
Dep’t of Corr., 672 F.3d 1000, 1012-15 (11th Cir. 2012) (holding that actual
innocence requires a showing of actual, factual innocence, rather than legal
innocence). Even if the Adams had not identified Mr. Hutchinson’s voice on the
911 call, and even if two men robbed a bank wearing masks and carrying shotguns,
the jury had sufficient evidence before it to conclude that he made the call and that
he shot his girlfriend and her children with his own shotgun.

Case No. 3:13cv128-MW

25a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 19 of 26
Page 19 of 26

The counseled Rule 60(b)(6) motion also contends that other factors add to
the cumulative total of facts that show extraordinary circumstances justifying the
reopening of the 2009 petition. He asks the Court to consider “how the federal
habeas proceedings impeded Mr. Hutchinson from successfully securing
independent DNA testing in the Florida courts to establish his actual innocence.”
ECF No. 78 at 32. He explains that during the first petition proceeding, Mr. Doss
moved for authorization to litigate in state court a request for DNA testing of a
metal door strip from the kitchen to the garage, which was not tested and presented
to the jury even though his trial counsel had possession of that potential DNA
evidence. He alleges DNA evidence taken from Mr. Hutchinson’s body could
establish that another person was involved in the crime. He cites trial counsel’s
alleged failure to ask for independent DNA testing after learning from the DNA
analyst that all the DNA evidence had to be re-examined before trial due to the
possibility that the standards had been switched. Id. at 33-34.
Mr. Hutchinson contends that this Court’s failure to rule on the motion to
exhaust the DNA claims in the first petition proceeding adds to the cumulative
defects in integrity of the proceeding and warrants reopening the 2009 petition. He
reports that when Mr. Hutchinson later sought to litigate the DNA issues in State
court, the Florida Supreme Court dismissed his appeal from denial of a pro so
motion for DNA testing pursuant to Florida Rule of Criminal Appeal 3.853 (DNA

Case No. 3:13cv128-MW

26a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 20 of 26
Page 20 of 26

testing) as unauthorized because he did not proceed through counsel. See
Hutchinson v. State, No. SC11-2301, 2012 WL 521209 (Fla. Feb. 8, 2012). See
also ECF No. 17 at 6.
Mr. Hutchinson argues that all the evidence he has cited—including
evidence that was not DNA tested and has not provided any exculpatory results—
and the evidence presented at trial establish his actual innocence such that under
McQuiggin, his first petition should be reopened and heard on the merits. Although
some of the evidence cited by Mr. Hutchinson, if proven, could tend to explain,
diminish, or impeach certain other evidence in the case, nothing cited by Mr.
Hutchinson demonstrates that he is actually innocent under the standards
applicable to these claims. He has not demonstrated that in light of the alleged new
evidence, considered with the evidence presented at trial, no juror acting
reasonably would have voted to find him guilty. See McQuiggin, 569 U.S. at 386.
This gateway standard is not equivalent to a sufficiency of evidence standard—
instead, the Court must make a probabilistic determination of what reasonable,
properly instructed jurors would do if they considered all the evidence presented.
See House, 547 U.S. at 538.
Mr. Hutchinson presented his defense at trial that two intruders wearing
masks and carrying shotguns invaded the home and shot his girlfriend and her
children. He testified that he tried to defend them but was unsuccessful. He also

Case No. 3:13cv128-MW

27a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 21 of 26
Page 21 of 26

asserted a defense of intoxication. These defenses was rejected by the jury. The
Florida Supreme Court rejected his claim of actual innocence, finding that the
evidence reviewed on direct appeal was sufficient to sustain a conviction for
premeditated first-degree murder. Hutchinson, 17 So. 3d at 703. Much of what he
presents as new evidence existed at the time of trial and was available to his
counsel at least as late as the filing of the first habeas petition in 2009. Even if all
the evidence proffered in the amended Rule 60(b)(6) motion is considered as new,
none is of the type of new, reliable evidence contemplated by Schlup—reliable
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence calling into question his guilt. And, none demonstrates that it is
more likely than not that no reasonable juror would have convicted Mr.
Hutchinson. McQuiggin’s gateway is not a change in the law that provides an
extraordinary circumstance requiring the reopening of Mr. Hutchinson’s 2009
federal habeas petition under Rule 60(b)(6). 6
2. Martinez v. Ryan
As another factor urged by Mr. Hutchinson as one of multiple factors that he
contends create extraordinary circumstances warranting reopening the 2009 federal

6

The amended motion suggests that an evidentiary hearing should be held. For all the foregoing
reasons, an evidentiary hearing is not required and will not be provided. The district court need
not conduct an evidentiary hearing on a Rule 60(b) motion unless a hearing is necessary to aid
the district court’s analysis. See, e.g., Cano v. Baker, 435 F.3d 1337, 1342-43 (11th Cir. 2006).

Case No. 3:13cv128-MW

28a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 22 of 26
Page 22 of 26

habeas petition, Mr. Hutchinson cites the decision in Martinez v. Ryan, 566 U.S. 1
(2012). Martinez established a new equitable rule that would allow federal review
claims of ineffective assistance of trial counsel if postconviction counsel, under
certain circumstances, failed to raise the claim in state proceedings. The Eleventh
Circuit held in Arthur v. Thomas, 739 F.3d 611, 630 (11th Cir. 2014), that the rule
announced in Martinez is inapplicable to Rule 60(b)(6) motion and does not
provide extraordinary circumstances under the rule where dismissal of the petition
sought to be reopened is due to the operation of the AEDPA’s federal limitations.
Mr. Hutchinson’s invitation to find that the Eleventh Circuit’s holding in Arthur is
incorrect is declined. The Martinez decision, even if considered as one of a number
of factors urged by Mr. Hutchinson, does not demonstrate that exceptional
circumstances exist under Rule 60(b)(6) to reopen his untimely initial petition filed
in 2009.
3. Hurst v. Florida
Mr. Hutchinson also relies on the issuance of decision in Hurst v. Florida,
577 U.S. 92 (2016), as another factor in his claim of cumulative extraordinary
circumstances justifying relief under Rule 60(b)(6). He insists he does not present a
substantive constitutional claim based on Hurst, but still contends that the decision
casts doubt on the validity of his death sentence. In Hurst v. Florida, the United
States Supreme Court extended the procedural rule in Ring v. Arizona, 536 U.S.

Case No. 3:13cv128-MW

29a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 23 of 26
Page 23 of 26

584 (2002), to find Florida’s death penalty sentencing scheme unconstitutional
because it did not require a jury to find the existence of an aggravating
circumstance to support imposition of the death penalty. The Supreme Court more
recently held that Ring and Hurst do not apply retroactively on collateral review.
See McKinney v. Arizona, 140 S. Ct. 702, 708 (2020).
Mr. Hutchinson waived a penalty phase jury and his claim in State court
based on Hurst v. Florida was rejected for that reason. See Hutchinson v. State,
243 So. 3d 880, 883 (Fla. 2018) (holding Hurst relief is not available for
defendants who have waived a penalty phase jury). Even so, Mr. Hutchinson
argues that the Florida Supreme Court’s reliance on his waiver leaves “lingering
federal constitutional doubts” about his death sentence—thereby creating an
extraordinary circumstance sufficient to require reopening his 2009 federal
petition—because when he waived a penalty phase jury, he did not know he was
waiving a constitutional right to a jury finding of an aggravator. In spite of Mr.
Hutchinson’s disclaimer, his twenty-one page argument suggesting that he should
be entitled to Hurst relief sails perilously close to a new substantive constitutional
claim, which is not the proper basis for a Rule 60(b)(6) motion seeking to set aside
an earlier dismissal based on the AEDPA statute of limitations. See, e.g., Gonzalez,
545 U.S. at 531-32. Notwithstanding his contention that the constitutional validity
of his death sentence is in doubt, he has not demonstrated that the decision in Hurst

Case No. 3:13cv128-MW

30a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 24 of 26
Page 24 of 26

v. Florida gives rise to an extraordinary circumstance supporting relief under Rule
60(b)(6).7 The decision in Hurst v. Florida does not demonstrate an extraordinary
circumstance, either individually or as part of a holistic review of factors,
necessary for the rare relief provided under Rule 60(b)(6).
Conclusion
Mr. Hutchinson urges this Court to find the existence of extraordinary
circumstances under Rule 60(b)(6) and reopen his initial federal habeas petition
dismissed in 2009. He offers a conglomeration of factors, none of which
independently or in a holistic review qualify as extraordinary. Mr. Hutchinson’s
pro se Rule 60(b) motion was originally denied because no grounds were shown to
allow relief under the rule. ECF No. 24. Recognizing that “death is different,” the
Court vacated that order, reinstated the motion, appointed counsel to evaluate
whether any legal grounds could be presented that would allow relief under the

7

While not relied on by the Florida Supreme Court in denying Mr. Hutchinson Hurst relief, it is
notable that prior to his sentencing, the jury found him guilty of four counts of first-degree
murder, one of which did not result in a death sentence. In 2020, the Florida Supreme Court
receded from its ruling in Hurst v. State, 202 So. 3d 40 (Fla. 2016), which implemented changes
in Florida capital sentencing pursuant to Hurst v. Florida. The Florida Supreme Court held in
State v. Poole, 297 So. 3d 487, 508 (Fla. 2020), cert. denied, Poole v. Fla., --- S. Ct. ----, 2021
WL 78099 (Jan. 11, 2020), that under the court’s precedent interpreting Ring v. Arizona, and
under a “correct understanding” of Hurst v. Florida, the jury’s finding the defendant guilty of
other prior violent felonies satisfied the requirement of a jury finding of a statutory aggravator.
Thus, under Florida law, there existed a prior violent felony conviction found by a jury beyond a
reasonable doubt that qualifies as a statutory aggravator and militates against the conclusion that
Mr. Hutchinson’s waiver of a penalty-phase jury creates lingering doubt about the
constitutionality of his sentence in light of Hurst.

Case No. 3:13cv128-MW

31a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 25 of 26
Page 25 of 26

rule, and allowed the instant amended motion to be filed. While the current
counseled motion expands on the grounds presented in the pro se motion, it
essentially repackages many of the same grounds and still does not provide a basis
on which to find extraordinary circumstances exist for reopening the 2009 habeas
petition. For the reasons explained above, the motion filed under Federal Rule of
Civil Procedure 60(b)(6) is denied.
Certificate of Appealability
An appeal of the denial of a Rule 60(b) motion requires a certificate of
appealability (COA). Williams v. Chatman, 510 F.3d 1290, 1294 (11th Cir. 2007);
Gonzalez v. Sec’y for Dept. of Corrections, 366 F.3d 1253, 1263 (11th Cir. 2004).
A COA may issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483-84 (2000). Further, a COA should not issue in the appeal from
the denial of a Rule 60(b) motion unless the Petitioner shows, at a minimum, that it
is debatable among jurists of reason whether the district court abused its discretion
in denying the motion. See, e.g., Lambrix v. Sec’y, Fla. Dep’t of Corr., 851 F.3d
1158, 1169 (11th Cir. 2017). Relief under Rule 60(b)(6) is available only in
extraordinary circumstances. Lambrix, 851 F.3d at 1170. Mr. Hutchinson has failed
to show an abuse of discretion in denial of the Rule 60(b) motion and has failed to

Case No. 3:13cv128-MW

32a

Case 3:13-cv-00128-MW Document 82 Filed 01/15/21 Page 26 of 26
Page 26 of 26

make a substantial showing of the denial of a constitutional right. Issuance of a
COA is therefore not warranted.
For the foregoing reasons,
IT IS ORDERED:
1. Mr. Hutchinson’s counseled amended motion for relief from judgment
under Federal Rule of Civil Procedure 60(b), ECF No. 78, is DENIED.
2. A certificate of appealability is DENIED.
3. The Clerk shall enter judgment stating, “Jeffrey Glenn Hutchinson’s
amended motion for relief from judgment under Federal Rule of Civil Procedure
60(b), ECF No. 78, is DENIED.”
4. The Clerk shall close the file.
SO ORDERED on January 15, 2021.
s/Mark E. Walker
Chief United States District Judge

Case No. 3:13cv128-MW

33a

